           U.S. Department of
                                                         Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General



Subject:   INFORMATION: Notification of Audit on                        Date:    July 7, 2004
           Background Investigations of DOT
           Government and Contractor Employees
           Project No. 04B3008B000
 From:

 -   -
           Alexis M. Stefani             /#/wi                       Reply to
                                                                     ~ t t of:
                                                                           n     JA-60


     To:   Assistant Secretary for Administration

           The Office of Inspector General will perform an audit of background investigations of
           Department of Transportation (DOT) government and contractor employees.

           Our objectives are to determine: (I) whether DOT government and contractor
           employees have undergone background investigations that are appropriate to the
           position that they hold, (2) how promptly background investigations of government
           and contractor employees are completed, (3) the status and adequacy of departmental
           systems for tracking background investigations, and (4) whether DOT uses the
           investigative results of other Federal agencies in assessing the backgrounds of current
           and potential government and contract employees.
-    -


           We plan to stai-t this audit the-week of August 2, 2004.- We-will contac-your-audit
           liaison to schedule an entrance date to discuss the planned audit. The Program
           Director for the project is Darren Murphy, and the Project Manager is Jerrold Savage.
           For any additional information, please call Mr. Murphy at (206) 220-6503 or
           Mr. Savage at (206) 220-65 1 1.

                                                    ?Y

           cc: Lee A. Privett, M-40
               Martin Gertel, M-1
               Ann Branch, TSS- 10
               Barbara Braswell, MC-PRS
               Mike Hartley, DMA- 10
Zahid Khawaja, NPO-3 10
Kevin O'Malley, SLSDC
Debra Steward, RAD-20
Cynthia Thornton, HAIM- 13
Richard Weaver, MAR-3 10
Anthony R. Williams, ABU- 100
